t-.

r.L i.- IsNWXOt/^U,

FILED

2/6/2020

United States District Court
Western District of Virginia

JULIA C. DUDLEY, CLERK
BY: s/ A. Little
DEPUTY CLERK

Lynchburg Division

UNITED STATES OF AMERICA

v.

Case No. 6:99-cr-70054

ORDER

DF.MOND O’NEIL PARKER,

Judge Norman K. Moon
Defendant.

Before the Court is Defendant Demond O’Neil Parker’s motion to correct his newly
reduced sentence, pursuant to Rule 35(a) of the Federal Rules of Criminal Procedure, filed August
13, 2019. Dkt. 670. This Court re-sentenced Parker on July 30, 2019, through its order granting
his request for a reduction through the First Step Act. Dkt. 669. The time has passed for the
Government to provide its response, and so this motion is ripe for disposition.
District courts are generally not authorized to modify terms of imprisonment once they
have been imposed. See 18 U.S.C. § 3582(c). But provided that it acts within fourteen days after
sentencing, a district court may correct a sentence that resulted from “arithmetical, technical, or
other clear error.” Fed. R. Crim. P 35(a); United States v. Shank, 395 F.3d 466 (4th Cir. 2005).
However, as the Fourth Circuit has indicated, “Every relevant authority agrees that the scope of
‘clear error’ correctable under Rule 35(a) is extremely narrow.” United States v. Fields, 552 F.3d
401, 404 (4th Cir. 2009). “A district court's authority to correct a sentence imposed as a result of
‘clear error’ is limited to ‘cases in which an obvious error or mistake has occurred in the sentence,
that is, errors which would almost certainly result in a remand of the case to the trial court for
further action under Rule 35(a).’” United States v. Ward, 171 F.3d 188,191 (4th Cir. 1999) (quoting

. ,, V

United States v. Waters, 84 F.3d 86, 89 (2d Cir.1996)). As the Advisory Committee Notes to the
Federal Rules of Criminal Procedure state, Rule 35(a) “is not intended to afford the court the
opportunity to reconsider ... the appropriateness of the sentence.” Fed. R. Crim. P. 35 advisory
committee notes; see United States v; Pomrenke, No. l:15-cr-00033, 2016 WL 4486200, at *1
(W.D. Va. Aug. 25, 2016) (holding that because the issue raised by the defendant’s motion was
not “an arithmetical or technical one, but a substantive legal question” the court could not provide
relief under Rule 35(a)).
In his motion, Parker argues that the Couit, in conducting the § 3553(a) analysis for his re­
sentencing, did not adequately weigh the roughly two-year state sentence he was serving at the
time of his conviction for conduct allegedly related to the offenses resulting in his federal
convictions. Rule 35(a) does not authorize a Court to re-open its § 3553 analysis or otherwise
reconsider the appropriateness of an imposed sentence. United States v. Augustin, Criminal No.
2:15-0799-2, 2018 WL 9732081, at *1 (D.S.C. Oct. 2, 2018) (declining to amend sentence where
Defendant simply sought “to reargue issues that go to the Court’s exercise of sentencing
discretion” under § 3553(a)). Therefore, Defendant’s motion to amend or correct his new sentence
under the Fust Step Act, Dkt. 670, pursuant to Rule 35(a), is hereby DENIED.
It is so ORDERED.
The Clerk is directed to send a certified copy of this Order to the parties.
Entered this 6th day of February 2020.

NORMAN K. MOON f
SENIOR UNITED STATUS DISTRICT JUDGE

2

CLERK'S OFFICE U.S. DIST. COURT
AT LYNCHBURG, VA
FILED

In the United States District Court
For the Western District of Virginia
Lynchburg Division

7/30/2019
JULIA C. DUDLEY, CLERK

BY; s/ C. Amos
DEPUTY CLERK

Case No. 6:99-cr-70054

United States of America

memorandum opinion

V.

Demond O’Neil Parker,

Judge Norman K. Moon
Defendant.

Defendant Demond O’Neil Parker (“Defendant”) has filed a motion for reduction of
sentence pursuant to the First Step Act of 2018. (Dkt. 649). The motion has been fully briefed
and is ripe for review. For the following reasons, the Court will grant Defendant’s motion.
An initial indictment was filed against Defendant on July 20, 1997.

(Dkt. 1).

A

superseding indictment was filed on Febmary 16, 2000. (Dkt. 177). Count I of the .superseding
indictment charged Defendant with conspiracy to distribute cocaine base in violation of 21
U.S.C. §§ 846 and 841(b)(1)(A), and Count XVI charged him with possession of a firearm
during a drug trafficking crime in violation of 18 U.S.C. § 924(c). (Dkt. 651). On January 15
1998, pursuant to a plea agreement, Defendant pled guilty to those charges. (Dkts. 236, 237).
Defendant’s then-mandatory guideline range was 360 months to life imprisonment and he was
ultimately sentenced to 420 months imprisonment for Count I and 60 months for Count 16.
Pursuant to Amendments 706, 711, and 715 of the United States Sentencing Guidelines,
Defendant’s sentence was later reduced to 384 months as to Count I. (Dkt. 651). Defendant then
filed a motion to reduce his sentence pursuant to Amendment 782, this motion was denied.
(Dkts. 614, 619). Defendant filed the instant motion pursuant to the newly enacted First Step
Act in January 2019. (Dkt. 649).
1

Section 404 of the First Step Act of 2018 permits “a court that imposed a sentence for a
covered offense” to “impose a reduced sentence as if sections 2 and 3 of the Fair Sentencing Act
of 2010 (Public Law 111-220; 124 Stat. 2372) were in effect at the time the covered offense was
committed.” Pub. L. No. 115-015, § 404, 132 Stat. 015, 015 (2018). A “covered offense” is
defined as “a violation of a Federal criminal statute, the statutory penalties for which were
modified by section 2 or 3 of the Fair Sentencing Act of 2010 (Public Law 111-220; 124 Stat.
2372), that was committed before August 3, 2010.” Id.
Modifications of sentences under the First Step Act are governed by 18 U.S.C. §
3582(c)(1)(B), which states: “The court may modify an imposed term of imprisonment to the
extent otherwise expressly permitted by statute or by Rule 35 of the Federal Rules of Criminal
Procedure.” In determining if modification is appropriate, the Court will first address whether a
reduction is consistent with the First Step Act, and will then “consider whether’ the authorized
reduction is warranted, either in whole or in part, according to the facts set forth in § 3553(a).”
Dillon v. United States, 560 U.S. 817, 826 (2010)
The parties agree that Defendant’s offense of conviction was a violation of 21 U.S.C. §§
846, and 841(b)(1)(A), that the offense was committed before August 3, 2010, and that the
applicable penalties were modified by section 2 of the Fair Sentencing Act, which “reduced the
statutory penalties for cocaine based offenses” in order to “alleviate the severe sentencing
Although subsection 3582(c)(1)(B) does not reference 3553(a) as do other 3582(c)
subsections, that alone does not bar consideration of other factors. While the Dillon Court
analyzed the procedures under § 3582(c)(2), the language quoted is reflected in § 3582(c)(1)(B).
Additionally, this approach is mirrored by the Fourth Circuit’s analysis under Rule 35(b), which
allows the Court to “consider other sentencing factors . . . when deciding the extent of a
reduction.” United States v. Davis, 679 F.3d 190, 195 (4th Cir. 2012); see also United States
Sentencing Commission, Office of Education and Sentencing Practice, FIRST STEP Act,
https://www.ussc.gov/sites/default/files/pdf/training/newsletters/2019-special_FIRST-STEPAct.pdf (last visited Feb. 11, 2019). (“[T]he courts should consider the guidelines and policy
statements, along with the other 3553(a) factors, during the resentencing.”).
2

disparity between crack and powder cocaine.” United States v. Peters, 843 F.3d 572, 575 (4th
Cir. 2016). As relevant in this case, section 2 of the Fair Sentencing Act increased the drug
quantities necessary to trigger mandatory minimum sentences under 21 U.S.C. § 841(b)(1)(A).
Pub. L. No. 111-220, 124 Stat. 2372 (2010). Specifically, the threshold requirement to trigger
the mandatory minimum sentence of ten years under 21 U.S.C. § 841(b)(1)(A) was increased
from 50 grams to 280 grams. Id.
Despite agreement as to these facts, the Government argues that Defendant is not eligible
for a reduction pursuant to the First Step Act because the pre-sentencing report (“PSR”) states
that the offense involved a drug quantity over the revised threshold. (Dkt. 666) (citing Alleyne v.
United States, 570 U.S. 99 (2013); Apprendi v. New Jersey, 530 U.S. 466 (2000)). This Court
has already rejected this argument. See United States v. Herbert, No. 5:97-cr-30024, ECF No.
261 at 4 (“[T]he Court will consider the crime of conviction not the conduct reported in the PSR.
In doing so, this Court joins others in this district finding the holdings of Apprendi and Alleyne
applicable in the First Step context.”) (internal citations omitted).
Finding relief consistent with the First Step Act, the Court next “considers] whether the
authorized reduction is warranted, either in whole or in part, according to the facts set forth in §
3553(a).” Dillon, 560 U.S. at 826. The Government argues that the Court should exercise its
discretion in denying relief for two reasons: (1) relief should be denied based on the drug weight
reported in the PSR and “the fact that [Defendant] would remain subject to the higher penalties if
he had been prosecuted after the enactment of the Fair Sentencing Act and (2) relief would
provide Defendant with an unfair windfall as compared to defendants sentenced after the
enactment of the Fair Sentencing Act, but before Alleyne. (Dkt. 666 at 9). As explained in
Herbert, this Court does not find either argument persuasive. Herbert, No. 5:97-cr-30024, ECF

3

No. 261 at 4-5 (citing United States v. Stanback, No. 5:02-cr-30020, 2019 WL 1976445, *4
(W.D. Va. May 2, 2019)).
Defendant’s initial, mandatory sentencing guideline range was 360 months to life
imprisonment. (Dkt. 652). Defendant’s sentence has been adjusted pursuant to amendments to
the sentencing guidelines, resulting in his current sentence of 384 months imprisonment. (Id.)
The Court has been advised that Defendant’s current projected release date is June 18, 2034, and,
as of February 6, 2019, he had served approximately 202 months of his sentence. (Id.).
After consideration of the § 3553(a) factors, including the history and characteristics of
Defendant and the need to avoid unwarranted sentence disparities, as well as the parties’
arguments, the Court determines that a reduction of Defendant’s sentence is appropriate.
Defendant’s sentence will be reduced to 249 months, but not less than time served, as to Count 1.
His sentence as to Count 16 remains 60 months. His sentence will be followed by a term of
supervised release of 4 years. All other terms of the original sentence will remain the same.
The Clerk is directed to send copies of this memorandum opinion and the accompanying
order to Defendant, all counsel of record, the United States Probation Office, and the United
States Marshals Service, for delivery to the Bureau of Prisons.
Entered this 30th day of July 2019.

MSibnMrM’D^iAT^D[S'i'Ki(:rrjijD(:;E

4

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6230

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
DEMOND O’NEIL PARKER, a/k/a Neil,
Defendant - Appellant.

Appeal from the United States District Court for the Western District of Virginia, at
Lynchburg. Norman K. Moon, Senior District Judge. (6:99-cr-70054-NKM-9)

Submitted: July 23, 2020

Decided: July 28, 2020

Before WILKINSON, MOTZ, and RICHARDSON, Circuit Judges.

Affirmed by unpublished per curiam opinion.

Demond O’Neil Parker, Appellant Pro Se. Jennifer R. Bockhorst, Assistant United States
Attorney, OFFICE OF THE UNITED STATES ATTORNEY, Abingdon, Virginia, for
Appellee.

Unpublished opinions are not binding precedent in this circuit.

PER CURIAM:
Demond O’Neil Parker appeals the district court’s order denying his motion to
correct sentence, filed pursuant to Fed. R. Crim. P. 35(a). We have reviewed the record
and find no reversible error. Accordingly, we affirm for the reasons stated by the district
court. United States v. Parker, No. 6:99-cr-70054-NKM-9 (W.D. Va. Feb. 6, 2020). We
dispense with oral argument because the facts and legal contentions are adequately
presented in the materials before this court and argument would not aid the decisional
process.
AFFIRMED

2

FILED: July 28, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6230
(6:99-cr-70054-NKM-9)
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
DEMOND O'NEIL PARKER, a/k/a Neil
Defendant - Appellant

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

In the United States District Court
For the Western District of Virginia
Lynchburg Division

CLERK S OFFICE US. DIET. COURT
AT LYNCHBURG, VA
FILED

7/30/2019
JULIA C. DUDLEY. CLERK
3Y:

s/ C. Amos

DEPUTY CLERK

United States of America

Case No. 6:99-cr-70054

v.
ORDER

Demond O’Neil Parker,
Defendant.

Judge Norman K. Moon

For the reasons set forth in the accompanying memorandum opinion, it is hereby
ORDERED that Defendant Demond O’Neil Parker’s motion for reduction of sentence pursuant
to the First Step Act, (dkt. 649), is GRANTED. Defendant’s term of imprisonment as to Count I
is REDUCED to 249 months, but not less than time served. Defendant’s sentence of 60 months
as to Count 16 remains unchanged. His sentence will be followed by a period of supervised
release of 4 years. All other terms of Defendant’s original sentence shall remain the same.
The Clerk is directed to send copies of this order and the accompanying memorandum
opinion to Defendant, all counsel of record, the United States Probation Office, and the United
States Marshals Service, for delivery to the Bureau of Prisons.
Entered this 30th day of July 2019.

M/NlbRufeiTO^rArfA DISTRICT JUDGE

